                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: 1-11040021                                                                       Page 1 of 1



                 We received information from DOE-OIG that there may be overlapping research between
          a Department of Energy SBIR Grant and a NSF SBIR Grant to a company. 1 The owner and
          CEO of the company is also a professor2 at a local university3 where he conducted similar
          research.

                  When the SBIR proposals were compared, we found that they contained similar
          background materials, but that the research had different objectives. We then focused on the
          relationship between the company and the university and found that the university professor had
          properly disclosed his relationship with the company to university officials. It appears that there
          is a separation between the company and the university, and the university is managing the
          po~ential conflict of interests with the professor.


                  DOE-OIG notified us that they were closing their file becat1;se there does not appear to be
          clear evidence of wrong doing by the company. We agree that there is no clear wrong doing.

                   This case is closed with no further action taken.




         2




NSF OIG Form 2 (11/02)
